No. 20-457
IN THE

ibuprettte Court of tbe Eititteb iktateo
MARKETGRAPHICS RESEARCH GROUP, INC.,
Petitioner,
v.
DAVID PETER BERGE,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 23, 2020.

('
di
Colin Casey
gan
Wilson-Epes Printing Co., Inc.

